HHS/OIG, Audit -"Audit of Costs and Reporting of Funds Under the Bioterrorism Hospital Preparedness
Program District of Columbia Department of Health"(A-03-04-00354)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Costs and Reporting of Funds Under the Bioterrorism
Hospital Preparedness Program District of Columbia Department of Health" (A-03-04-00354)
June 28, 2005
Complete Text of Report is available in PDF format (314 kb). Copies can
also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
States and major local health departments receive Health Resources and Services Administration (HRSA)
funds to upgrade and prepare hospitals and collaborating entities to respond to bioterrorism attacks
under the Bioterrorism Hospital Preparedness Program (Program).  Between April 2002 and August
2004, the District of Columbia Department of Health (District) received $3.6 million in Program funds.  Our
objectives were to determine whether the District accounted for and used Program funds in accordance
with its cooperative agreement with HRSA, and did not supplant District funds with Program funds.
The District did not properly record and report Program funds by priority area in accordance with
the cooperative agreement.  The District had unobligated program funds of $1,668,543 as of August
30, 2004, representing 46.5 percent of the $3,589,921 awarded.  The District improperly charged
or inadequately documented $14,105 in program funds; but did not use program funds to supplant its
own expenditures.
We recommended that the District record, summarize, and report program funds awarded, expended, obligated,
and unobligated by priority area in accordance with the cooperative agreement; ensure program activities
are funded in a manner that minimizes unobligated fund balances and achieves its goals; and refund
improperly charged or inadequately documented costs of $14,105. The District concurred with our second
recommendation and essentially met the intent of our third recommendation by agreeing to adjust its
records to account for $14,105 in questioned expenditures.  It is unclear from its response whether
the District concurs with our first recommendation.  The District responded that it manually tracks
program funds by critical benchmark.  We are pleased that the District recognizes that $14,105
should not have been charged to Program funds.  We are concerned that the revision of its records
only increases the significant unobligated funds already reported.  We continue to recommend that
the District comply with the cooperative agreement and track program funds by priority area.